Nos. 20-512 and 20-520
IN THE SUPREME COURT OF THE UNITED STATES
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
PETITIONER
v.
SHAWNE ALSTON, ET AL.

AMERICAN ATHLETIC CONFERENCE, ET AL.
PETITIONERS
v.
SHAWNE ALSTON, ET AL.
_____________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE SUPPORTING
RESPONDENTS, via e-mail and first-class mail, postage prepaid, this 10th day of March,
2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,970 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on March 10, 2021.
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 10, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0512
NCAA
SHAWNE ALSTON, ET AL.

LINDA T. COBERLY
WINSTON & STRAWN LLP
35 W. WACKER DRIVE
CHICAGO, IL 60601
312-558-8768
LCOBERLY@WINSTON.COM
MARK SIMON DAVIES
ORRICK, HERRINGTON & SUTCLIFFE LLP
COLUMBIA CENTER
1152 15TH STREET, NW
WASHINGTON, DC 20005
JESSICA LYNN ELLSWORTH
HOGAN LOVELLS US, LLP
555 13TH STREET NW
WASHINGTON, DC 20004
202-637-5886
JESSICA.ELLSWORTH@HOGANLOVELLS.CO
M
LISA MARIE GEARY
RMP LLP
5519 HACKETT ROAD
SUITE 300
SPRINGDALE, AR 72762
479-443-2705
LGEARY@RMP.LAW

JAY L. HIMES
LABATON SUCHAROW LLP
140 BROADWAY
NEW YORK, NY 10005
212-907-0834
JHIMES@LABATON.COM
ANITA M. MOORMAN
SPORT ADMINISTRATION PROGRAM
UNIVERSITY OF LOUISVILLE
SAC EAST
SUITE 104R
LOUISVILLE, KY 40292
502-852-0553
THOMAS BENJAMIN NACHBAR
UNIV. OF VIRGINIA, SCHOOL OF LAW
580 MASSIE ROAD
CHARLOTTESVILLE, VA 22903
BRUCE DAVIDSON OAKLEY
HOGAN LOVELLS US LLP
609 MAIN STREET
SUITE 4200
HOOUSTON, TX 77002-2781
JACK EDWARD PACE, III
WHITE & CASE LLP
1221 AVENUE OF THE AMERICAS
NEW YORK, NY 10020
ANDREW JOHN PINCUS
MAYER BROWN LLP
1999 K STREET, NW
WASHINGTON, DC 20006
202-263-3220
APINCUS@MAYERBROWN.COM

ANDREW ALAN PINSON
OFFICE OF THE GEORGIA ATTORNEY
GENERAL
40 CAPITAL SQUARE SW
ATLANTA, GA 30334-1300
404-651-9453
APINSON@LAW.GA.GOV
YEN-SHYANG TSENG
HORVITZ & LEVY LLP
3601 W. OLIVE AVE.
8TH FL.
BURBAK, CA 91505
SETH P. WAXMAN
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-663-6800
SETH.WAXMAN@WILMERHALE.COM

20-0520
AMERICAN ATHLETIC CONFERENCE, ET AL.
SHAWNE ALSTON, ET AL.

STEVE W. BERMAN
HAGENS BERMAN SOBOL SHAPIRO LLP
1301 SECOND AVE.
SUTIE 2000
SEATTLE , WA 98101
206-268-9320
STEVE@HBSSLAW.COM
ANDREW JOHN PINCUS
MAYER BROWN LLP
1999 K STREET, NW
WASHINGTON, DC 20006
202-263-3220
APINCUS@MAYERBROWN.COM

